other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final expression
of the agreement between you and the Credit Union. This written agreement
may not be contradicted by evidence of any oral agreement.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF
THE MILITARY AND THEIR DEPENDENTS:

The following applies if at the time this loan is made you are an active
member of the military or a dependent (as those terms are defined in the
Military Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations
(“MLA”), and (a) your loan is unsecured or secured by personal property or
a vehicle that you did not purchase with the proceeds of the loan; or (b) it is
otherwise determined by law that the MLA applies to your loan. If this loan
is a revolving line of credit or credit card, the MLA ceases to apply at any
time during which you are not a member of the military or a dependent (as
defined in the MLA).
1. NOTICE: Federal law provides important protections to members
of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member
of the Armed Forces and his or her dependent may not exceed
an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: the costs associated with
credit insurance premiums or debt protection fees; fees for ancillary
products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account). To receive this notice
verbally, please call 1-800-991-2221 during our normal business hours.
2. This loan will not be secured by a consensual lien on shares or deposits
in any of your accounts unless you agree to establish an account in
connection with this loan (“Secured Account”). Only funds deposited
into the Secured Account after the loan is made will secure this loan.
Any cross-collateralization provision contained in your loan or account
documents will not apply to the Secured Account or your other share or
deposit accounts for any loan subject to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or
administrative freeze under federal or state law, which gives us the right
to apply the sums in the Secured Account or any other account(s) you
have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are
hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any
requirement(s) to waive your rights to legal recourse under any
applicable state or federal law; (c) Any demands or requirements
construed as unreasonable notice from you in order to exercise your
legal rights; or (d) Prepayment penalties.
4. Any provisions in your consumer credit contract, loan, security, or
account agreements that are determined to be inconsistent with or
contradictory to these disclosures or the MLA (as they may be changed
or amended from time to time) are inapplicable with regard to this loan.
However, all other terms and conditions of the consumer credit contract
shall remain in full force and effect.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is

5

wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.

FI16866 Rev 4-2020
©2009 Securian Financial Group, Inc. All rights reserved.

6

M-131681

P.O. Box 525 • Oshtemo, MI 49077-0525
800.991.2221 • www.consumerscu.org

CardMember Agreement
In this Agreement, “You” and “your” mean any person who accepts this
Agreement or uses the Card. The “Card” means any credit card issued to you
or those designated by you under the terms of this Agreement. “We”, “us”, “our”
and the “Credit Union” means Consumers Credit Union or its successors. By
using your card, you agree to all of the terms and conditions set forth herein.
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST
IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW
AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED
UNDER THIS AGREEMENT. YOU ALSO AGREE THAT WE HAVE
SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR FEDERAL
LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO
THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law if
given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also secure
your obligations under this Agreement, unless that other collateral is your
principal residence or non-purchase money household goods.
Using Your Card. You can purchase or lease goods and services from any
merchant who honors your Card, and you may obtain cash advances from
financial institutions and ATM machines that accept the Card, up to your
maximum approved cash advance limit. You agree not to present your Card for
any extension of credit in excess of your available credit limit or obtain a cash
advance in excess of your approved cash advance limit; however, if you do
exceed your credit limit or cash advance limit, you understand we may require
immediate payment sufficient to bring the balance below the credit limit or cash
advance limit. We will set your credit limits and cash advance limits based on
creditworthiness and will increase or decrease your credit and cash advance
limits when and as we review your creditworthiness. We reserve the right to
decline transactions that we believe in our discretion will cause a loss to the
credit union or for any other reason.
Personal Identification Number (PIN). We may issue a Personal Identification
Number (PIN) for use with your Card. This PIN is confidential and should not
be disclosed to anyone. You may use your PIN and your Card to access your
account, and all sums advanced will be added to your account balance. In the
event a use of your PIN constitutes an Electronic Funds Transfer, the terms and
conditions of your Electronic Funds Transfer Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases,
cash advances, and balance transfers made by you or anyone whom you
authorize to use the Card; (b) all Interest Charges and all other charges or fees;
(c) collection costs and attorney’s fees as permitted by applicable law, and any
costs incurred in the recovery of the Card; and (d) credit in excess of your credit
limit that we may extend to you.
Illegal Transactions: You agree that your Card and account will not be used to
make or facilitate any illegal transactions as determined by applicable law; and
that any such use will constitute an event of default under this Agreement. We
may decline any transaction that we believe to be illegal under applicable law,
including but not limited to any transaction involving or relating to any gambling
activity. You agree that we will have no liability or responsibility for any such
use by you or any authorized user(s); or for declining any such transaction. You
further agree to indemnify and hold us harmless from any suits, liability, damages

1

or adverse action of any kind that results directly or indirectly from such illegal
use. You promise to pay us any and all amounts owing on your Card for any
transactions made by you, even if the transaction is determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for the
repayment of amounts owed, regardless of who initiated any transaction under
the account.
Others Using Your Account. If you allow anyone else to use your account,
you will be liable for all credit extended to such persons. You promise to pay for
all purchases and advances made by anyone you authorize to use your account,
whether or not you notify us that he or she will be using it. If someone else is
authorized to use your account and you want to end that person’s privilege, you
must notify us in writing, and if he or she has a Card, you must return that Card
with your written notice for it to be effective.
Ownership of Card. Your Card remains our property and may be cancelled
by us at any time without notice. You agree to surrender your Card and to
discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at
the time you open your account and as may be changed from time to time in
accordance with applicable law.
Average Daily Balance including new transactions: Interest Charges will
accrue on your average daily balance outstanding during the month. To get the
average daily balance, we take the beginning balance each day, add any new
purchases, cash advances, balance transfers or other advances, and subtract
any payments, unpaid interest charges, and unpaid late charges. This gives us
the daily balance. Then, we add up all the daily balances for the billing cycle and
divide that by the number of days in the billing cycle. We then multiply that by
the periodic rate corresponding to the Annual Percentage Rate on your account.
If you have different rates for purchases, cash advances or balance transfers,
separate average daily balances for each will be calculated and the appropriate
periodic rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on purchases
by paying the full amount of the new balance for purchases each month by the
date on which the payment is due. Otherwise, the new balance of your account,
and subsequent advances from the date they are posted to the account, will be
subject to an Interest Charge. You cannot avoid Interest Charges on cash advances
and balance transfers; even if you pay the entire cash advance balance or balance
transfer balance by the payment due date, you will incur the Interest Charges accrued
from the date the cash advance or balance transfer is posted to your account.
Fees. In addition to the Interest Charges set forth above, you agree to also pay
any and all fees that you incur as disclosed to you on your Truth-in-Lending
Statement or similar disclosures (as may be amended from time to time), or as
disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree
to notify us immediately if your Card is ever lost or stolen or if an unauthorized
use may have occurred. “Unauthorized use” means the use of the Card by
someone other than you who does not have actual, implied or apparent authority
for such use, and from which you receive no benefit. The telephone number to
call is (800) 991-2221. You agree to follow up your call with notice in writing to us
at: Card Services, P.O. Box 525, Oshtemo, MI 49077-0525. You also agree to
assist us in determining the facts, circumstances and other pertinent information
relating to any loss, theft or possible unauthorized use of your Card and comply
with such procedures as we may require in connection with our investigation.
You will have no liability for MasterCard transactions not authorized by you,
provided that you have exercised reasonable care in safeguarding the Card
from risk of loss or theft, and upon becoming aware of such loss or theft, you
promptly report the loss or theft to us.
Minimum Payment Due; Crediting of Payments. Payments are due in the
amount and on the date disclosed on your billing statement. If your payment is
received by us on a business day at the address and by the time designated on
the billing statement, it will be credited to your account on the date of receipt.
If payment is made at any location other than the address designated on the
periodic statement, credit for such payment may be delayed up to five (5) days.
Payments will be applied in any order we determine, subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs. You will be in

default if: (1) you fail to make any payment on time; (2) if you fail to keep any
promises you have made under this Agreement or under other Agreements
you have with us; (3) if you die; (4) if you file a petition in bankruptcy or have
a bankruptcy petition filed against you, or if you become involved in any
insolvency, receivership or custodial proceeding; (5) if anyone attempts to take
any of your funds held by us via legal process or if you have a judgment or
tax lien filed against you; (6) if you make any false, inaccurate, or misleading
statements in any credit application or credit update; or (7) if we, in good faith,
believe that your ability to repay what you owe is or soon will be impaired, or that
you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your full
account balance without giving you notice. If immediate payment is demanded,
you agree to continue paying interest charges and fees until what you owe has
been paid, and any shares that were given as security for your account may
be applied towards what you owe. You agree to pay all reasonable costs of
collection, including court costs and attorney’s fees, and any costs incurred in
the recovery of the Card, subject to applicable law. Even if your unpaid balance
is less than your credit limit, you will have no credit available during any time
that any aspect of your account is in default.
Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic
services and access to your checking or other account(s) if you become
delinquent on any of your credit card or deposit obligations to us or you cause
a loss to us. We shall not be liable to you in any regard in connection with such
suspension of services.
Penalty APR. A penalty APR may be applied to your account if you make a
payment that is late 60 days or more. If we increase your APRs due to a late
payment, we may keep them at this higher level on existing and new balances
until you make six consecutive on-time payments.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You understand
that we are not obligated to offer such services and may withdraw or change
them at any time.
Important Information for Rewards Cardholders. Points will expire three
years from the end of the calendar year in which they are earned, and will expire
on a first-in, first-out basis annually. Thus, points earned in calendar year one
will expire on the last business day of calendar year four. Your account must be
open and in good standing to redeem rewards. Some restrictions and limitations
may apply. Rewards points may not be available to all cardholders. The Credit
Union has the right to change the Rewards program at any time.
Convenience Checks. We may, at our discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your
account. By signing such check, you authorize us to pay the item for the amount
indicated and post such amount as a cash advance to your account. We do
not have to pay any item which would cause the outstanding balance in your
account to exceed your credit limit.
Credit Information. We may from time to time request personal information
from you or obtain credit reports from the credit reporting agencies for the
purpose of updating your credit status. Your failure to provide such information
when requested by us may result in suspension of credit privileges under this
Agreement, including your ability to obtain any future advances by any means.
You authorize us to investigate your credit standing when opening or reviewing
your account. You authorize us to disclose information regarding your account
to credit bureau and creditors who inquire about your credit standing.
Negative Information Notice. We may report information about your account to
credit bureaus. Late payments, missed payments, or other defaults on your account
may be reflected in your credit report.
Foreign Transactions; Currency Conversion. Purchases and cash advances
made in foreign currencies will be billed to you in U.S. dollars. The conversion rate
in dollars will be a rate selected by the card company from a range of rates available
in wholesale currency markets for the applicable central processing date, which
rate may vary from the rate the card company itself receives, or the governmentmandated rate in effect for the applicable central processing date in each instance.
All transactions processed outside of the United States (which may include internet

transactions) will be charged a foreign transaction fee in the amount disclosed on
your Truth-in-Lending Statement (as amended from time to time).
Cross-border Transaction Pricing. Cross-border transaction pricing refers to
any transaction on a MasterCard branded credit card in which the cardholder
country code differs from the country code of the merchant. U.S. region issuers
will pay MasterCard an “Issuer Crossborder Assessment” on all cross-border
Transactions on U.S.-issued MasterCard branded credit cards. This assessment
will be calculated by multiplying the Issuer Settlement Amount for each Crossborder Transaction by the amount disclosed on your Truth-in-Lending Statement.
In addition to the Issuer Cross-border Assessment, there is a “Currency Conversion
Assessment” in the amount disclosed on your Truth-in-Lending Statement.
Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your
obligation to repay any balance on your account resulting from use of the Card
as well as Interest Charges and fees incurred. We may change the terms of
this Agreement, including the method of calculating the periodic rate, at any
time, by written notice, subject to applicable law. Use of the Card constitutes
agreement and acceptance of any change in terms, unless applicable law
requires otherwise. Our failure to exercise any of our rights or to take any action
shall not constitute a waiver of those rights, or an amendment or change in any
of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or prepayments
will not delay your next scheduled payment - you will still need to make the
minimum scheduled payment by the next scheduled due date to keep your
account current. We may accept late payments, partial payments, checks or
money orders marked “payment in full” and such action shall not constitute final
settlement of your account or a waiver or forgiveness of any amounts owing
under this Agreement.
Enforcement. We do not lose our rights under this or any related agreement
if we delay enforcing them. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by submitting a credit
slip which will be posted to your account. If your credits and payments exceed
what you owe us, the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1 or more, it will be refunded upon
your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not responsible
for goods or services that you purchase with the Card unless: (a) your purchase
was made in response to an advertisement we sent or participated in sending you;
or (b) your purchase cost more than $50 and was made from a plan merchant in
your state or within 100 miles of your home; and only if you have made a good faith
attempt, but have been unable to obtain satisfaction from the plan merchant. You
must resolve all other disputes directly with the plan merchant. We do not warrant
any merchandise or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the
most recent postal address or e-mail address (if you have elected to receive
such documents via electronic means) you have given us. Notice sent to any
one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change your
address for any reason. In order to prevent identity theft, your identity may need
to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law and state
law in the state in which we are primarily located, and the venue shall be located
in the county and state in which we are primarily located. Operating regulations
of MasterCard may also apply. This Agreement is the contract that applies to all
transactions even though the sales, cash advance, convenience check, credit or

2

3

4

CONSUMERS CREDIT UNION IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
07/30/2020
accurate as of _________________.
You can contact us toll free at (800) 991-2221 or Consumers Credit Union, P.O. Box 525,
Oshtemo, MI 49077-0525 to inquire if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Mastercard Credit Card
Annual Percentage Rate
(APR) for Purchases

5.24 % - 22.99 %

Mastercard Rewards Credit Card

11.24 % - 22.99 %

depending on your credit history. This APR will
vary with the market based on the Prime Rate.

depending on your credit history. This APR will
vary with the market based on the Prime Rate.

APR for Cash Advances

9.24 % - 22.99 % depending on your
credit history. This APR will vary with the
market based on the Prime Rate.

15.24 % - 22.99 % depending on your
credit history. This APR will vary with the
market based on the Prime Rate.

APR for Balance Transfers

months.
% Introductory APR for
After that, your Standard APR will be
9.24 % - 22.99 % depending on your
credit history. This APR will vary with the
market based on the Prime Rate.

months.
% Introductory APR for
After that, your Standard APR will be
15.24 % - 22.99 % depending on your
credit history. This APR will vary with the
market based on the Prime Rate.

Penalty APR and When
it Applies

22.99%
This APR may be applied to your account if you make a payment that is late 60 days or more.
How Long Will the Penalty APR Apply? If we increase your APRs due to a late payment, we
may keep them at this higher level on existing and new balances until you make six consecutive
on-time payments.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you interest
on purchases if you pay your entire new purchase balance by the due date each month. We will
begin charging interest on cash advances and balance transfers on the date the cash advance or
balance transfer is posted to your account.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or
Maintain your Account
• Annual Fee:

None

Transaction Fees
• Balance Transfer:
4% of the amount of each transfer with a minimum of $5.00
• Cash Advance:
4% of the amount of each cash advance with a minimum of $5.00
• Foreign Transaction &
Cross-Border Assessment: 2% of each transaction in U.S. dollars regardless of whether the transaction involves a currency
conversion and
0.008% of the Issuer Settlement Amount and
0.002% of the Issuer Settlement Amount if there is a currency conversion.
Penalty Fees
• Late Payment:
• Over-the-Credit Limit:
• Returned Payment:

Up to $28.00 if your payment is late.
None
Up to $28.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Penalty APR disclosed above if you make a late payment.
9009 LASER FI16417 Rev 2-2019

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

